<html>
<title> - FULL COMMITTEE MARKUP OF HR. 3866, THE SMALL BUSINESS PROGRAMS ACT OF 2007 and H.R. 3867, THE SMALL BUSINESS CONTRACTING PROGRAM IMPROVEMENTS ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 FULL COMMITTEE MARKUP OF HR. 3866, THE 
                SMALL BUSINESS PROGRAMS ACT OF 2007 and 
                     H.R. 3867, THE SMALL BUSINESS 
                  CONTRACTING PROGRAM IMPROVEMENTS ACT 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________

                          Serial Number 110-53

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

39-374 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001































                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DEAN HELLER, Nevada
YVETTE CLARKE, New York              DAVID DAVIS, Tennessee
BRAD ELLSWORTH, Indiana              MARY FALLIN, Oklahoma
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director

                  Adam Minehardt, Deputy Staff Director

                       Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

              Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

              Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  

























              Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

              Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


CHARLIE GONZALEZ, Texas              LOUIE GOHMERT, Texas, Ranking
RAUL GRIJALVA, Arizona               LYNN WESTMORELAND, Georgia

                                 (iii)

  





























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2
Braley, Hon. Bruce...............................................     7
Fallin, Hon. Mary................................................     7

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    21
Chabot, Hon. Steve...............................................    24
Braley, Hon. Bruce...............................................    25

                                  (v)

  


                 FULL COMMITTEE MARKUP OF HR. 3866, THE 
                SMALL BUSINESS PROGRAMS ACT OF 2007 and 
                     H.R. 3867, THE SMALL BUSINESS 
                  CONTRACTING PROGRAM IMPROVEMENTS ACT 

                              ----------                              


                       Thursday, October 18, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[Chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Shuler, Gonzalez, 
Larsen, Grijalva, Bean, Cuellar, Lipinski, Moore, Altmire, 
Braley, Clarke, Ellsworth, Johnson, Sestak, Hirono, Higgins, 
Chabot, Bartlett, Graves, Akin, Musgrave, Davis, Fallin, 
Buchanan and Jordan.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez.
    I am pleased to call this markup to order. In today's 
markup, the committee will consider two pieces of legislation. 
These two bills are the remaining pieces in the effort to 
update and modernize the programs operated by the Small 
Business Administration.
    With these changes, the committee seeks to ensure that we 
are meeting the needs of our changing economy. Small businesses 
face many challenges in running a successful company. They are 
competing in a global economy where they are also faced with 
rising energy and health care costs.
    Over the last 50 years, the SBA has helped millions of 
entrepreneurs overcome these types of obstacles.
    The first bill that the committee will consider provides 
the SBA with the necessary funding to continue helping small 
businesses grow. This legislation expresses the intent of the 
committee that these programs need adequate resources to 
effectively meet the needs and demands of small firms.
    Our second bill will modernize and update the SBA's small 
business contracting programs. For many years, small business 
owners have expressed concern that these are not working and 
changes need to come from Congress.
    The data on federal contracting shows that these 
entrepreneurs are correct. It is my hope that the contracting 
legislation we move forward today will address some of the 
shortcomings.
    Before we move to the consideration of these bills, I would 
like to yield to the ranking member, Mr. Chabot, for any 
opening remarks that he may have.

                OPENING STATEMENT OF MR. CHABOT

    Mr. Chabot. Thank you very much, Madam Chair, and I'm going 
to, in my opening statement, just address both the bills that 
we have before us here today, and we are marking up the Small 
Business Contracting Improvements Act and the Small Business 
Programs Act of 2007 as you had indicated, the last pieces in 
the re-authorization puzzle.
    The Chairwoman set an aggressive schedule for the committee 
to consider a complete reexamination of the Small Business Act 
and the Small Business Investment Act of 1958.
    Despite this crowded schedule of hearings and markups, the 
Chairwoman and her staff I believe worked diligently to operate 
as much as possible in a bipartisan manner.
    Her efforts and those of her staff have resulted in 14 
bills being reported out by this committee, and all of them 
passing in the House with overwhelming margins.
    The work of this committee has shown that despite 
fundamental differences, we can work together to help small 
businesses, and I think we would agree that is the goal of all 
the members of this committee. Even when there is a failure to 
agree, the disagreements, for the most part, are not dripping 
in rancor. The Chairwoman has recognized that there will be 
times when our fundamental philosophies will prohibit 
agreement. Today is one of those occasions.
    I, for example, cannot support the Small Business 
Contracting Improvements Act of 2007, although there are some 
things in the bill which I strongly support. For example, the 
bill helps America's veterans. There are other provisions in 
the bill that just make it problematic and therefore I can't, 
in good conscience, support this particular bill.
    Instead of, you know, pitting various small business owners 
against each other, we should expand procurement opportunities 
for all small businesses on an equal basis.
    I do want to thank the Chairwoman for working with 
Congresswoman Fallin to include in the bill I think an 
important part of this, which is in the bill at this time, and 
I want to thank her for doing that, and I want to thank 
Congresswoman Fallin for this. I know she's been like a pit 
bull on this, to get this done. She's spoken to me, and I think 
the Chairwoman , many times on this, to make this happen. So I 
want to commend her for her hard work and I want to commend the 
Chairwoman for working with her in improving this bill. I think 
that is one of the good things in the bill.
    The other bill that we're considering today, the Small 
Business Programs Act of 2007, is a highly technical bill but 
one of the committee's legislative obligations.
    The financing programs in the Small Business Act, and Small 
Business Investment Act of 1958, rely on guarantees of 
repayment issued by the SBA. Congress must impose limits on 
that authority. Now this bill adopts limits on that authority, 
such that the SBA will not have to impose programmatic 
restrictions as a result of unexpected demand for these 
programs.
    I want to point out that supporting these limits will have 
no budgetary impact. In addition, the committee must provide 
authorization levels for the Small Business Development Center 
Program.
    The allocation of funds to various centers is based, in 
part, on a comparison of funds appropriated to funds 
authorized. Without an authorization level, the funding formula 
cannot work. The other authorization levels in the bill are 
simply the committee's recommendations to the appropriators on 
what the authorizing committee believes is the most appropriate 
allocation of resources among the various SBA programs.
    Before yielding back, I again want to thank the Chairwoman 
for her efforts this year. It's been a packed year for Members 
and staffs. As we move away from the reauthorization project, I 
look forward to working with the Chairwoman on, among other 
things, improving the procurement process for small businesses, 
examining ways to make the tax code beneficial to small 
business economic growth, and after all, small businesses are 
the driving force in this economy,most of the jobs created 
nowadays are in the small business sector, so that's very 
important, and reducing unnecessary regulations on small 
business.
    And again I want to thank the Chairwoman for working with 
the minority on the committee, time and time again on this 
committee, and I yield back the balance of my time.
    Chairwoman Velazquez. Thank you, Ranking Member Chabot, and 
it has really been a pleasure working with you and your staff, 
and I think that if there has been a message, the strong 
message that we have sent to America is that yes, in Congress 
we can do, we can work, and we can allow for the deliberation 
of different ideas to be discussed, and that this is a 
committee where we have to show that we leave the ideology at 
the door and do what is best for American businesses, and that 
is to provide the tools that they need in order to flourish.
    And I think that even despite our philosophical 
disagreements, that we have shown respect to each other, and 
for the flows of ideas, and input coming from both sides of the 
aisle.
    With that, let's go to the first bill that the committee 
will consider, is the Small Business Program Act of 2007.
     This legislation establishes the funding levels for the 
entrepreneurial assistance initiative for the next two years. 
It also provides for the necessary authority for the SBA to 
carry out its lending and venture capital programs.
    At a hearing with stakeholders three weeks ago, it became 
clear that the SBA and its partners have played a vital role in 
assisting small businesses across this country.
    The wide network of SBDCs, Women Business Centers, and 
SCORE, have done their best to meet the rising demand for 
services at a time when their budgets are being trimmed.
    Despite these programs track record of success, they must 
be able to evolve and modernize. In the new economy, these 
entrepreneurial initiatives must provide technical expertise on 
new issues, ranging from exporting to online sales, to 
identifying different avenues of capital.
    These type of assistance cannot occur without the proper 
resources. The legislation under consideration will ensure that 
every entrepreneur in America has access to the technical 
assistance they deserve. Rural and urban areas will have 
centers that can provide the support for small business owners 
who have the drive but need help with a business plan.
    The authorization bill also establishes the necessary loan 
levels for these programs. The SBA lending and venture capital 
programs have a proven track record of providing capital to 
successful businesses.
    There is not a community that has not seen some benefit 
from the financing in the form of SBA loans and venture 
capital.
    The SBA's partner-lenders have been able to provide access 
to capital in a time when there is a concern about the 
availability of credit. Increasing the loan levels for the 7(a) 
and 504 lending programs will come and not cause, and will 
prevent the situation of 2004, when there was a program 
shutdown.
    When one talks about pro business policies, one part of the 
equation is providing the tools for success. As conservative 
columnist Cal Thomas wrote, when discussing legislation passed 
out of this committee earlier this year, these programs help 
individuals who help themselves. This legislation is a step 
forward in allowing the SBA and its partners to meet the rising 
demand for services and capital.
    Just as small businesses need to adjust to changing 
business conditions, so do the stakeholders in assisting 
entrepreneurs create jobs. This legislation will provide the 
tools to do and to achieve that.
    I urge support of the legislation and I will now yield to 
Mr. Chabot for any comments he may have.
    Mr. Chabot. I thank the gentlelady for yielding. The 
comments that I had on this particular bill I already made in 
my opening statement, so I will have no further comments. We do 
support this bill and would encourage our members to support 
this.
    Chairwoman Velazquez. Are there any other Members that wish 
to be recognized on the legislation?
    The committee now moves to consideration of the bill, H.R. 
3866, the Small Business Programs Act of 2007. The Clerk will 
report the title of the bill.
    The Clerk. H.R. 3866, a bill to reauthorize certain 
programs under the Small Business Act for each of fiscal years 
2008 and 2009.
    Chairwoman Velazquez. I ask unanimous consent that the 
bill, in its entirety, be open for amendments at this time. 
Does any Member seek recognition for the purpose of offering an 
amendment?
    Seeing no amendments, the question is on passing and 
reporting the bill, H.R., 3866.
    All those in favor say aye.
    [Chorus of ayes]
    Chairwoman Velazquez. All those opposed, no.
    The ayes have it, and H.R. 3866 is adopted and ordered 
reported.
    The committee now will consider the second bill, the Small 
Business Contracting Programs Improvement Act that modernizes 
the SBA contracting initiatives.
    Chairwoman Velazquez. This is an important bill and one 
that is long overdue. Primarily, it has two main missions. To 
update the SBA contracting programs and to ensure that taxpayer 
dollars are protected.
    The act makes critical changes that will open up new 
opportunity for small businesses. It will serve to spur 
entrepreneurial activity across a wide spectrum of industry and 
lead to a more competitive procurement marketplace, and, 
ultimately, a better value for our taxpayers.
    This legislation has bipartisan support within this 
committee and includes the input from a number of Members.
    I would like to give special thanks to Congresswoman 
Fallin, an original co-sponsor of the act, for her leadership 
on this bill.
    The legislation will assist veterans, entrepreneurs, 
including those that are service-disabled. When the men and 
women serving our Nation in Iraq and Afghanistan return home, 
many hope to start a small business. This can be especially 
true for those injured veterans recovering at medical 
facilities such as Walter Reed.
    Our hope is that this bill will provide the tools to start 
a new endeavor and begin a new life. To do this, we propose 
placing veteran small business owners at the top of the list 
for receiving federal contracts.
    This will eliminate the barriers that veterans face in 
receiving noncompetitive contracts. We are also requiring the 
SBA fulfill its obligation under executive order 13360, which 
will give veterans access to procurement assistance.
    It is important that we act on this legislation, so that 
all veterans can become, if they so choose, successful 
entrepreneurs. The 8(a) program has not been modernized in 20 
years, and we will be making minimal but important steps to 
allow it to operate in the current business environment.
     For most, the net worth standard is increased to a level 
consistent with inflation. This change will ensure that we do 
not penalize companies for success, and then wonder why they 
fail when they leave the program.
    These provisions, while seemingly technical and without 
cost, will help make a great difference for program 
participants.
    Similarly, the SBA has taken too much time to implement the 
women's procurement program. This bill will provide agencies 
with sufficient information to immediately begin competing 
contracts among women business owners. Women entrepreneurs have 
been waiting nearly seven years. They have lost tens of 
billions of dollars in contracting opportunities and they will 
not have to wait any longer.
    To combat fraud and taxpayers waste, the legislation takes 
several steps. Safeguards and business integrity standards are 
incorporated, that will make sure criminals are not squandering 
taxpayers dollars. To better promote self-policing, any small 
business can challenge an individual program award.
    Further steps are taken to require on-site reviews by SBA 
personnel to verify eligibility for the HUB Zone Program prior 
to a contract award. This provision requires certification only 
once before a second contract award.
    This is a common sense approach and is sorely needed, as 
SBA has been aware of programs in this area for at least four 
years.
    The legislation also takes steps to extend the Rise SBA 
contracting programs. All procurement initiatives will have 
both prime and subcontracting goals. Each program that has 
noncompetitive contracts as benefit will have the same 
threshold, increased and indexed for inflation.
    This will ensure contractors, including service-disabled 
veterans, have access to higher dollar contracts.
    Finally, the legislation will assist small businesses in 
the temporary staffing industry. I would like to thank 
Representative Fallin for continuing to work with the committee 
and her leadership on this important issue.
    Together, these changes bring SBA contracting initiatives 
into the 21st Century, by raising the profile of veteran 
entrepreneurs and rooting out fraud and taxpayers waste in SBA 
contracting programs.
    There is remarkably broad support on this leg ranging from 
the National Black Chamber of Commerce to the National 
Federation of Independent Business, and the Associated General 
Contractors of America.
    Also supporting the legislation are the American Legion, 
the Veterans of Foreign Wars, and AMVETS, the United States 
Hispanic Chamber of Commerce, the U.S. Women's Chamber of 
Commerce, and the National Defense Industrial Association, also 
support this bill.
    Again I would like to thank Ranking Member Chabot and his 
staff for working with us on these challenging issues.
    While we do not see eye to eye on all these changes, I 
believe that this legislation has benefited from your input and 
counsel along the way. I hope that we can work through our 
differences of this legislation as we move forward, and now I 
would yield to Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair. I made most of my 
points in my opening statement originally. We just have some 
philosophical differences which I have already expressed 
somewhat. So rather than take up the time, I know we have votes 
on the floor, and a couple other Members I think want to make 
opening statements, I will just yield back. Thank you.
    Chairwoman Velazquez. Are there any other Members who wish 
to make an opening statement?
    Ms. Fallin. Madam Chair.
    Chairwoman Velazquez. Yes. Ms. Fallin, we have like two 
minutes now. We can come back. We are going to recess and then 
come back right after the vote.
    Ms. Fallin. Whichever you would like to do. Mine is brief.
    Chairwoman Velazquez. Let's recess, and then when we come 
back, I will give you an opportunity to make an opening 
statement.
    [Recess.]
    Chairwoman Velazquez. The committee is called to order. Are 
there any other Members that wish to be recognized on this 
legislation?
     Mr. Braley
    Mr. Braley. Thank you, Madam Chairwoman .

                OPENING STATEMENT OF MR. BRALEY

    I will not make my complete opening statement which I have 
submitted for the record, but I would just like to point out 
the importance of the Small Business Contracting Improvement 
Act, in conjunction with the bill we earlier reported out of 
this committee, the Small Business Fairness In Contracting Act, 
which passed on the House Floor on May 10th by an overwhelming 
bipartisan vote of 409 to 13, which raised the small business 
federal contracting goal from 23 percent to 30 percent.
    This means that all of the programs included in the Small 
Business Contracting Improvements Act will have greater 
opportunities to compete for federal contracts, and that's why 
I support the bill. I yield back the balance of my time.
    Chairwoman Velazquez. Thank you. Are there any other 
Members that wish to be recognized on this legislation?
    Ms. Fallin. Madam Chair, I would like to be recognized.
    Chairwoman Velazquez.
    Ms. Fallin is recognized for five minutes.

                OPENING STATEMENT OF MS. FALLIN

    Ms. Fallin. Thank you, Madam Chair, and I would like to 
just first of all, thank you and your staff for the opportunity 
to work with you on this legislation and to address some issues 
that are important to the small business owners of my state, 
and will actually affect small business owners across our 
Nation as it deals with Federal Government contracting.
    And I would also like to thank our Ranking Member, Mr. 
Chabot, who has had many conversations over the past month, and 
his staff, especially Barry, for working with me on some 
language that, as I said, has been important to some companies 
in my state, and will affect many businesses throughout our 
Nation, and thank you so much. And I have deep respect for our 
Ranking Member and appreciate his interest in helping me with 
my particular concern.
    I am also very pleased that we are having this markup today 
as it will update many important small business programs, 
including service for the disabled veterans and the HUB Zone 
programs. Small business programs such as these go a long ways 
towards helping our struggling small business owners succeed as 
well as fostering real long-term economic growth in our 
communities and helping to create jobs.
    i want to thank both, as I said, the majority and the 
minority staff on our Small Business Committee, who have worked 
with me in helping to craft language in this bill, and your 
willingness to help me to resolve some difficult issues that 
affect my district, and Madam Chair, I just urge my colleagues 
for their support of this bill.
    Chairwoman Velazquez. Are there any other Members that wish 
to be recognized on the legislation?
    The committee now moves to consideration of the bill, H.R. 
3867, the Small Business Contracting Program Improvements Act.
    The Clerk will report the title of the bill.
    The Clerk. H.R. 3867, a bill to update and expand the 
procurement programs of the Small Business Administration, and 
for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the 
bill, in its entirety, be open for amendments at this time.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    The gentleman is recognized.
    Mr. Akin. Thank you, Madam Chair.
    I come with--
    Chairwoman Velazquez. Does the gentleman have an amendment?
    Mr. Akin. Yes, I have an amendment, and it's--let's see--it 
just says Section 501 amendment.
    Chairwoman Velazquez. Okay. The Clerk will report the 
amendment.
    The Clerk. Amendment offered by Mr. Akin of Missouri, to 
strike Section 501.
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered.
    The gentleman is recognized for five minutes on your 
amendment.
    Mr. Akin. Thank you, Madam Chair.
    It is a little bit of an odd situation I find myself in, 
Madam Chair. This amendment is not one that, actually, the way 
it is drafted, I would particularly support. The way the bill 
is drafted, I don't support that either, and let me explain the 
concern that I have and would just ask maybe we could work on 
this problem together.
    The concern I have is that you have a certain number of 
these different contracts in the 8(a) program, and there is 
competition for the various businesses that want to get those 
contracts, and the way the bill was set up originally, there is 
a limitation of $250,000 that would be--that if you have more 
than that, then you are not economically disadvantaged.
    Now that 250,000 hasn't changed in 30 years, and so in that 
regard, I think that it is important that we update it, and so 
I agree with the bill and my amendment basically takes it back 
to where it currently is, at 250,000.
    It seems to me, Madam Chair, that there is a little bit of 
a tension here, and that is, if you increase the number of 
people who can apply for the 8(a) programs, and you have a 
limited number of those contracts already, what is going to 
happen is that it is going to be harder and harder for people 
to get those, and a lot of larger businesses that are much more 
stable, that don't have to have them, may get different grants 
that the smaller businesses cannot get.
    So what my suggestion would be, to try to work up a 
mechanism of a sliding scale, so as the business becomes 
stronger, it has more assets in the business, the owner of the 
business becomes stronger economically, that they are limited 
to the number of these contracts they can get, and it's a 
sliding scale. So the poorer businesses, the ones that are just 
starting, can get as many as they can get, whereas as the 
business gets bigger, we reduce the number of those 8(a) 
programs that we could do.
    Chairwoman Velazquez. Is the gentleman--
    Unknown Speaker: Yes.
    Mr. Akin. So--
    Chairwoman Velazquez. Okay.
    Mr. Akin. So, in other words, my concern is this could go 
the way we did the same kind a thing with blighted land some 
years ago. We said well, if you are in an inner city, some of 
the land can be blighted and therefore the local government can 
set it up for eminent domain and this land--well, what happened 
is we got land out in our area that is going for a couple 
million bucks an acre and it is blighted. An awful lot of us 
wish we had some of that blighted land too but the program has 
expanded way beyond what it was originally intended to do.
    My concern is if we go in this trajectory, we expand 8(a) 
in the same way, and it loses its effectiveness in helping the 
smallest businesses.
    So I don't have the mechanism to how to create that sliding 
scale but that's what I would just, would ask the Chairwoman , 
if she would work with us, at least see if there's a practical 
way to do that.
    Chairwoman Velazquez. Yes. I would like to work with the 
gentleman before we report, bring this legislation to the 
Floor. I want for the record to reflect some of the comments 
that I have on your amendment, and this is very important 
because what your amendment does, it strikes the language in 
the bill that modifies the net work limitation for the SBA's 
8(a) program.
    And the language in the bill provides an inflationary 
adjustment and removes a burdensome restriction that this 
committee, under Republican leadership, eliminated for other 
SBA programs.
    Even though the economy has changed dramatically, the net 
work limitation on business owners has not been increased since 
1988. Then a gallon of gas was 91 cents. Now it is $2.76. The 
average price of a new home was $89,300. Now it is nearly 
triple that.
    In 1988, a Ford F150 truck was around $13,000. In 2007 is 
at least $30,000. Basically, Mr. Akin wants minority businesses 
to operate under the economic and financial structure of 1988, 
when, in fact, today's economy bears little resemblance to it.
    We need to give businesses the tools they need, and Mr. 
Akin's amendment simply takes them away. His amendment will 
penalize companies for success. We want companies to grow, to 
borrow more money, to get stronger and to hire more employees. 
But if this amendment is adopted, we prevent these businesses 
from doing so and we are simply setting them to fail.
    What we need in this legislation is what the SBA 
administrator included in his testimony. The administrator 
stated that adjusted for inflation, the net work should be 
$550,000, and that is what we have done in this bill.
    We have merely adjusted the 8(a) net worth at the program's 
entry point to $550,000, consistent with increases inflation. 
You probably never thought you will hear me say this, but even 
the previous chairman thought this type of standard should be 
changed.
    In 2003, when the Republicans controlled this committee, we 
unanimously passed legislation that lifted the net worth cap on 
the HUB Zone Program.
    The gentleman from Missouri was on this committee then and 
did not object. Why, in 2003, did the gentleman from Missouri 
support lifting the restriction completely but today he's 
concerned with a much more measured move.
    In the committee report from 2003, the Republican chairman 
stated that, and I quote: ``Success is penalized due to a 
finding that the program participant is no longer economically 
disadvantaged. Thus the only businesses that remain in the 
program are those that are not very successful. In the 
committee's view, this single change will dramatically improve 
the success rate of the program.''
    That was what the chairman said then, it was true then, and 
it is true today.
    For the very same reasons that existed in 2003, we should 
be allowing these firms to operate in the same way that other 
small businesses are able to.
    No other small business program has the type of stringent 
requirement. None of the companies, no service-disabled 
veterans, no women procurement program. If we want businesses 
to be successful, we need to update this program, and for that 
reason I object and I oppose this amendment.
    Mr. Bartlett. Madam Chair.
     Chairwoman Velazquez. Yes. I recognize the gentleman.
    Mr. Bartlett. It is kind of interesting. If you have a 
personal net worth of $550,000, plus the kind of a home that 
would go with that, plus the assets of your business, you are a 
millionaire. And it is kind of interesting. That speaks, I 
think, to an enormous devaluation of the dollar, that we now 
have millionaires who are disadvantaged. It is just a comment 
on our time, I think.
    Chairwoman Velazquez. Would the gentleman yield. Yes. Would 
the gentleman yield. This is the only program to have a net 
worth. We don't require for the HUB Zone and we don't require 
for service-disabled veterans. We require it for the 8(a) 
program.
    What the SBA administrator stated here, when he came before 
this committee and testified, said that it should be adjusted 
for inflationary indexes, and that is exactly what we are 
doing. What we are doing is minimum changes to the restriction.
    Mr. Bartlett. I think that is true but it is just 
interesting that we now are defining a millionaire who is 
disadvantaged, who needs special treatment in the marketplace. 
Interesting, isn't it?
    Chairwoman Velazquez. Mr. Akin.
    Mr. Akin. Madam Chair, as I said in my opening comment, I 
am not really kicking about the change from 250 to 550. My 
concern is more of a mathematical one, and that is that people 
qualify for this all the way up to a certain point, and then 
they mathematically just fall off a cliff, and now you don't 
qualify. And it seems like to me what we want to do is to take 
the weakest and the smallest and the beginning companies, give 
them the maximum benefit, and then as the companies grow and 
the people prosper, the assets of the organization get bigger, 
that what we want to do is to wean them off of these contracts 
on a gradual basis where they can be competitive in all kinds 
of other contracts.
    So I am really asking, instead of just having a square 
corner or a cliff where you fall off, I am just talking about 
trying to set it up as a sliding scale, because what is going 
to happen is every time somebody gets to the edge of the cliff, 
they are going to be back here saying we will just bump it up a 
little bit more instead of if we just sort of taper off the 
number of contracts that they can--as they get bigger and 
stronger, we just drop the number that they are eligible for.
    And I don't know if we can do that practically, but Madam 
Chair, I would withdraw the amendment. Thank you.
    Chairwoman Velazquez. And as I offered to you, we will work 
before we go to the Floor.
    Mr. Chabot. Madam Chair.
    Chairwoman Velazquez. Yes, sir.
    Mr. Chabot. I will be very brief, and in light of the fact 
that the gentleman from Missouri has already withdrawn the 
amendment, there is no sense to go into great detail, but I 
would just note for the record that when the chair mentions the 
previous statement by the previous chair, the chair is not 
talking about this Ranking Member.
    Chairwoman Velazquez. Oh. You know that I love you.
    Mr. Chabot. I am not going to touch that.
    [Laughter.]
    Chairwoman Velazquez. You are already blushing, so we know.
    So, without objection, your amendment is withdrawn.
    Are there any other amendments to the bill?
    Mr. Bartlett.
    Mr. Bartlett. Madam Chair, I have an amendment at the desk 
relative to Section 101.

    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Offered by Mr. Bartlett of Maryland to in 
Section 101, strike subsection B.
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered. 
The gentleman is recognized for five minutes on his amendment.
    Mr. Bartlett. Okay. Well, the amendment is very simple. It 
simply says strike subsection B in Section 101. Madam Chair, 
this gets down to a single word, which is what this subsection 
is about.
    If you look at our agencies, which all have goals for a 
number of different small business groups, the group that 
probably has the most difficulty of reaching the goal is the 
Hub Zone group, and one of the requirements is that where there 
are two HUB Zone companies that could perform, then that 
contract has to be competed between these two HUB Zones.
    The bill which is before us, subsection B, what it really 
does is to strike the word ``shall`` and change it to ``may.`` 
What this would do is to permit a contracting officer who is 
used to dealing with Joe and some other small business 
category, to just ignore the fact that there are two Hub Zones 
there, which I think is the small business category which has 
the most trouble of meeting the goals, that he could just 
ignore the fact that it could be competed because the 
legislation would say may rather than shall.
    I think and I think most Americans agree that the quality 
and the quantity of the performance of a contract goes up when 
you have competition.
    I just think that this moves us in the wrong direction, in 
two ways. One, it denies the benefits that the taxpayer gets 
from competition and two, it makes it more difficult to meet 
our goals for the Hub Zone category.
    Chairwoman Velazquez. I rise in opposition to this 
amendment. This amendment strikes the language in the bill that 
makes the Hub Zone Program a discretionary program rather than 
a mandatory one.
    What we are doing today is giving the agencies discretion 
by changing to ``may`` rather than ``shall.`` But also I just 
want for my Members here to know that this amendment will 
disrupt the carefully crafted underlying agreement that we have 
reached.
    This agreement has a more diverse group of supporters than 
any piece of legislation this committee has acted upon.
    Currently supporters include the Associated General 
Contractors, the National Federation of Independent Business, 
the American Legion, the Veterans of Foreign Wars, AMVETS, the 
National Black Chamber of Commerce, the U.S. Women's Chamber of 
Commerce, the Aerospace Industry Association, and the National 
Defense Industrial Association.
    This amendment will also give the highest contracting 
standard for competitive contracts to the HUB Zone Program, a 
program that the Small Business Administration Inspector 
General has raised serious concern about. Congress must be 
mindful of providing contracting priorities over other small 
business when the beneficiaries of those preferences are likely 
not eligible for them.
    In fact the American Legion sent a letter, and I want to 
read.
    ``We steadfastly oppose any amendments to alter these 
legislation provisions that assist veterans-owned businesses in 
Section 101.''
    With that, I ask my colleagues to defeat this amendment.
    Does any other Member seek recognition?
    Yes--
    Mr. Bartlett. Madam Chair, I would just like to note that 
your comments made my point, and that is it gives discretion to 
the contracting officer to award sole source, avoiding the 
benefits that accrue to the taxpayer by competition.
    Chairwoman Velazquez. Mr. Altmire is recognized for five 
minutes.
    Mr. Altmire. Thank you, Madam Chair, and I know that my 
friend from Maryland is well-meaning in this amendment but a 
consequence, probably unintended of this, is the amendment is 
going to strike the portion of the bill that gives priority to 
veterans that receive contracts, and anyone who has worked with 
me on this committee knows what a priority I place on giving 
veterans increased access to small business programs, and with 
Federal Government providing less than 1 percent of contracts 
to service-disabled veterans, this provision is necessary to 
ensure that veterans are continually made a priority.
    As our veteran population grows, it is vital for the 
Federal Government to improve the environment for veteran 
entrepreneurs by providing them with contracting opportunities. 
This amendment does the exact opposite. The amendment that has 
been offered would negatively impact the ability for these 
veteran-owned businesses to get contracts, and I know this 
because I have been contacted by the American Legion, the VFW, 
and AMVETS, all of which oppose this amendment and support the 
bill as is.
    I yield back my time.
    Mr. Bartlett. Madam Chair, I would just like to note that I 
am one of the strongest supporters of veterans in the Congress. 
I serve on the Armed Services Committee. I am informed that 
this does not change the veterans preference and in no way 
diminishes their opportunities for contracting.
    Chairwoman Velazquez. I will invite the gentleman to read 
the letter that I was sent by the American Legion and the other 
veteran's group. They support, strongly, Section 101, and they 
really oppose any alteration to--
    Mr. Bartlett. Madam Chair, I suspect that they have 
erroneously been led to believe that my amendment would change 
their priorities and I am told it does not.
    Chairwoman Velazquez. I believe that they can read, I 
believe they can read English, and they understand the 
agreement that has been reached, where we are going to have the 
8(a), and the veterans, disabled service veterans, and then as 
a preference program, any other programs.
    Any other Member who seeks recognition on the amendment?
    Ms. Moore. Thank you, Madam Chair.
    I just want to point out that currently, we are not even 
providing 1 percent of the contracts to service-disabled 
veterans, and so I think that an amendment that would even 
suggest that we not give priority to veterans would have a 
chilling impact, given our egregious, abysmal record on 
providing access to the program for veterans now.
    Chairwoman Velazquez. Any other Member who seeks 
recognition on this amendment?
    The committee now--the question is on the amendment. All 
those in favor say aye.
    All those against say no.
    The noes have it.
    Mr. Bartlett. Madam Chair, I would just like to note that I 
do not believe that my amendment--I think that I should have to 
verify that, and I would like, rather than delay the recorded 
vote, I would like a show of hands so the record will show what 
the vote was. Just have a show of hands...
    Chairwoman Velazquez. Do you want a vote on this amendment?
    Mr. Bartlett. Show of hands.
    Chairwoman Velazquez. No. We will go for the roll call. Do 
you want a roll call?
    Mr. Bartlett. What I would like is for the record to show 
that Roscoe Bartlett did not capitulate without a fight.
    [Laughter]
    Chairwoman Velazquez. Let's have a roll call.
    The Clerk will call the vote.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. No.
    The Clerk. Ms. Velazquez votes no.
    Mr. Shuler.
    Mr. Shuler. No.
    The Clerk. Mr. Shuler votes no.
    Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mr. Gonzalez votes no.
    Mr. Larson.
    Mr. Larson. No.
    The Clerk. Mr. Larson votes no.
    Mr. Grijalva.
    Mr. Grijalva. No.
    The Clerk. Mr. Grijalva votes no.
    Mr. Michaud.
    Ms. Bean.
    Ms. Bean. No.
    The Clerk. Ms. Bean votes no.
    Mr. Cuellar.
    Mr. Cuellar. No. Chairwoman .
    The Clerk. Mr. Cuellar votes no.
    Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no.
    Ms. Moore.
    Ms. Moore. No.
    The Clerk. Ms. Moore votes no.
    Mr. Altmire.
    Mr. Altmire. No.
    The Clerk. Mr. Altmire votes no.
    Mr. Braley.
    Ms. Clarke.
    Ms. Clarke. No.
    The Clerk. Ms. Clarke votes no.
    Mr. Ellsworth.
    Mr. Ellsworth. No.
    Chairwoman Velazquez. Mr. Ellsworth votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    The Clerk. Mr. Johnson votes no.
    Mr. Sestak.
    Mr. Sestak. No.
    The Clerk. Mr. Sestak votes no.
    Ms. Hirono.
    Ms. Hirono. No.
    The Clerk. Ms. Hirono votes no.
    Mr. Higgins.
    Mr. Chabot.
    Mr. Chabot. Yes.
    The Clerk. Mr. Chabot votes yes.
    Mr. Bartlett.
    Mr. Bartlett. Yes.
    The Clerk. Mr. Bartlett votes yes.
    Mr. Graves.
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes yes.
    Mr. Akin.
    Mr. Shuster.
    Ms. Musgrave.
    Ms. Musgrave. Yes.
    The Clerk. Ms. Musgrave votes yes.
    Mr. King.
    Mr. Fortenberry.
    Mr. Westmoreland.
    Mr. Gohmert.
    Mr. Heller.
    Mr. Davis.
    Mr. Davis. Yes.
    The Clerk. Mr. Davis votes yes.
    Ms. Fallin.
    Ms. Fallin. Yes.
    The Clerk. Ms. Fallin votes yes.
    Mr. Buchanan.
    Mr. Buchanan. Yes.
    The Clerk. Mr. Buchanan votes yes.
    Mr. Jordan.
    Mr. Jordan. Yes.
    The Clerk. Mr. Jordan votes yes.
    Mr. Braley.
    Mr. Braley. No.
    The Clerk. Mr. Braley votes no.
    Chairwoman Velazquez. Are there any other Member who has 
not been recorded?
    The Clerk will report the vote.
    The Clerk. The vote is 16 noes, eight yeas.
    Chairwoman Velazquez. The notes have it and the amendment 
has been defeated.
    Mr. Chabot. Madam Chair.
    Chairwoman Velazquez. Yes.
    Mr. Chabot. I ask unanimous consent to speak out of order 
for just a moment.
    Chairwoman Velazquez. Sure.
    Mr. Chabot. Thank you. Again, in the interest of not 
dragging this out any longer than is necessary, I'm only going 
to speak when I think it is particularly necessary, and I think 
Mr. Bartlett's amendment, for those who voted yes, I just want 
to reiterate the point of view of those Members, that we still 
consider that veterans would still get sole source authority 
under 101(a). I know there is some dispute about that and some 
groups that believe that that's not accurate.
    But I think there is no one, as Mr. Bartlett said, who I 
think defends veterans on a daily basis than Mr. Bartlett, and 
I think those of us who agree with him agree on that.
    Chairwoman Velazquez. Would the gentleman yield. Would the 
gentleman yield.
    Mr. Chabot. I would be happy to yield.
    Chairwoman Velazquez. Well, two things. For once, the 
number don't lie. Veterans have gotten less than 1 percent in 
contracting opportunities with the Federal Government. Two, we 
held the hearings and veteran groups were here. They strongly 
supported it and they explained the obstacle that they had been 
facing in trying to access the federal marketplace and that is 
why we are striking this balance today.
    Mr. Chabot. And again, reclaiming my time, I appreciate the 
Chairwoman 's comments, but still, I just want to make the 
point that I think those of us that voted in the way that we 
did are doing the best we can to look out for veterans and we 
think the minority is as well. There is just a difference of 
opinion here and I would yield back.
    Chairwoman Velazquez. Thank you. Yes, sir. The gentleman is 
recognized.
    Mr. Sestak. If I just might say, having testified as part 
of the military before Mr. Bartlett, and having numerous 
conversations when I was there before him, and now having 
worked on the House Armed Services Committee, there is no one 
who has been in stronger support of our military, our veterans, 
and I understand the difference of opinion here but I needed to 
say that.
    But I am glad this one passed, because if I might, just one 
moment, back in World War II, 182 days, on average, every 
soldier spent in combat. In this war, our soldiers over there 
in Iraq spend every day in combat for 15 months. So we are 
going to see more disabled come back, particularly with PTSD, 
and I know you support that. It is just a difference of 
opinion, but since I am on the other side of this debate on 
facts, but I do know you support it. Thank you very much.
    Chairwoman Velazquez. Would the gentleman yield. Would the 
gentleman yield.
    Mr. Sestak. Yield.
    Chairwoman Velazquez. It is clear to this committee and 
this Chairwoman , that we are not questioning here your support 
to veterans. But what we are questioning here is the ability of 
veterans to be able to access the federal marketplace, and that 
is what we are doing.
     In the interest of moving this along, since we are going 
to have a vote coming up, are there any other Members who seek 
recognition for the purpose of offering an amendment?
    Mr. Bartlett. Madam Chair.
    Chairwoman Velazquez. Mr. Bartlett.
    Mr. Bartlett. I have an amendment at the desk on Section 
201, which I will withdraw, if you can convince me that in fact 
we need the amendment. I mean we need the bill.
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Amendment offered by Mr. Bartlett of Maryland to 
strike Section 201.
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered.
    The gentleman is recognized for five minutes.
    Mr. Bartlett. Thank you very much and I will be very brief.
    The amendment is very simple. It says simple strike Section 
201. What Section 201 does is require a background check, a 
business integrity check for all small business programs. I 
believe that the FAR 9.104 does exactly that, and if it does 
that, then why do we need this bill language? If you can 
convince me that FAR 109.4 does not accomplish what this bill 
language accomplishes, then I will withdraw my amendment.
    Chairwoman Velazquez. It does it for other agencies but not 
for SBA program. We require background checks for other 
programs. We do not do it for this program. And you were here 
when the Inspector General of the SBA released a report on the 
Hub Zone programs, on fraud and waste, and I think that all of 
us should be for protecting taxpayers money and against waste 
and fraud, and that is exactly what we are doing with this 
language.
    Mr. Bartlett. Two things, Madam Chair. First of all, in 
nine years of the Hub Zone Program, there has been no 
prosecution, not one. There has been not one case referred for 
prosecution. There has been no investigation by an official 
government agency of any fraud. There have been a lot of ``sour 
grapes`` and allegations of fraud, but the three things that I 
stated are a fact. It is my understanding that our government 
contracting officers cannot award any contract without doing a 
business integrity check. Is that not true?
    And if that is true, then why do we need this bill 
language?
    Chairwoman Velazquez. Because we have it for other 
agencies. We don't have it for the SBA programs, and that is 
what we are doing here.
    Mr. Bartlett. Okay. What you are saying is that other 
agencies, in spite of the FAR, we have legislation that says--
    Chairwoman Velazquez. They require--
    Mr. Bartlett. That require background checks. Okay. Because 
they are doing something dumb, that means we are going to do it 
too?
    Chairwoman Velazquez. Well, we have--
    Mr. Bartlett. I withdraw my amendment.
    Chairwoman Velazquez. Okay. The gentleman withdrew his 
amendment.
    Are there any other amendments? Does any other Member--
    Mr. Bartlett. Madam Chair, I have one additional amendment 
and I just--I will withdraw the amendment but I just want to 
make a point. In our bill we extend the 8(a) program from nine 
years to ten years. I just was reflecting on that. That is the 
amount of time that it takes from the time you graduate from 
high school to get a PhD from Carnegie Mellon. My son just did 
that.
    And, you know, if you can't, in the time it takes to 
graduate from high school and get a degree from Carnegie Mellon 
in chemical engineering, you know, if you can't be standing on 
your feet in nine years, I am not sure adding one more year is 
going to make much difference.
    Chairwoman Velazquez. Let me just say, sir, that when it 
comes to the Hub Zone Program, it allows the company to be 
approved for three years at a time, indefinitely, as long as 
the business meets the basic eligibility requirements. Both 
service-disabled veterans and women entrepreneurs will be able 
to get contracts with the respective program's benefit until 
they are no longer small.
    What we are saying is let's extend--and you were part of 
all the hearings that were conducted here--to say nine years is 
not enough. It takes at least 18 months, once a company gets 
into the 8(a) program, to learn the ``nuts and bolts`` of the 
federal marketplace.
    So it is not enough for these people to be able to grow 
their business within the nine years. What does it make--what a 
difference a year will make. You know, we should be in the 
business, this committee, to provide the tools that will enable 
all these businesses to expand and grow because they are the 
ones creating jobs in our country, and every witness who came 
before this committee testified that nine years was not enough.
    Mr. Bartlett. The 8(a) program is obviously a very unique 
program. It is intended to provide sole source contracts to 
firms that couldn't get a contract in the competitive world, 
and the original legislation thought that nine years was 
adequate time.
    I am just reflecting, Madam Chair, that when my young son 
was a high school senior, and he had nine years to go to 
college and get his five year doctorate, that, you know, that 
ought to be enough time for a business to mature if it is 
enough time for my kid to mature. I am not going to bring the 
amendment to a vote but I just don't see any difference between 
10 years and nine years.
    If we really want to make a difference, let's make it 12 
years.
    Chairwoman Velazquez. Oh, if you want to do it, make an 
amendment.
    Mr. Bartlett. I withdraw my amendment.
    Chairwoman Velazquez. I ask unanimous consent to amend your 
amendment.
    Mr. Bartlett. I object.
    Chairwoman Velazquez. Mr. Sestak.
    Mr. Sestak. My only comment on this was when this original 
bill was implemented, I mean some company was obviously in 
Philadelphia competing with someone in Arkansas. But the whole 
globalization of the world and the bill that we just recently 
passed to help small businesses with a new strategy to approach 
the export world, that they're now competing with Shanghai, I 
think another year can help since the dynamics have truly 
changed in the competition that is out there, since it's a 
vastly more globalized world than when this was originally 
instituted. Thank you. I yield back the balance of my time.
    Chairwoman Velazquez. I am going to ask unanimous consent 
to withdraw his amendment.
    Any other Member wants to introduce an amendment, who seeks 
recognition for the purpose of an amendment?
    Seeing no further amendments, the question is on passing 
and reporting the bill, as amended, H.R. 3867.
    All those in favor say aye. Aye.
    All those opposed no.
    The ayes have it.
    On that I request a recorded vote and the Clerk will call 
the vote.
    The Clerk. Ms. Velazquez.
    Ms. Velazquez. Aye.
    The Clerk. Mr. Shuler.
    Mr. Shuler. Aye.
    The Clerk. Mr. Shuler votes aye.
    Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mr. Gonzalez votes aye.
    Mr. Larsen.
    Mr. Larsen. Aye.
    The Clerk. Mr. Larsen votes aye.
    Mr. Grijalva.
    Mr. Grijalva. Aye.
    The Clerk. Mr. Grijalva votes aye.
    Mr. Michaud.
    Ms. Bean.
    Ms. Bean. Aye.
    The Clerk. Ms. Bean votes aye.
    Mr. Cuellar.
    Mr. Cuellar. Aye.
    The Clerk. Mr. Cuellar votes aye.
    Mr. Lipinski.
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye.
    Ms. Moore.
    Ms. Moore. Aye.
    The Clerk. Ms. Moore votes aye.
    Mr. Altmire.
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes aye.
    Mr. Braley.
    Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes aye.
    Mr. Ellsworth.
    Mr. Ellsworth. Aye.
    The Clerk. Mr. Ellsworth votes aye.
    Mr. Johnson.
    Mr. Johnson. Aye.
    The Clerk. Mr. Johnson votes aye.
    Mr. Sestak.
    Mr. Sestak. Aye.
    The Clerk. Ms. Sestak votes aye.
    Ms. Hirono.
    Ms. Hirono. Aye.
    The Clerk. Ms. Hirono votes aye.
    Mr. Higgins.
    Mr. Higgins. Aye.
    The Clerk. Mr. Higgins votes aye.
    Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Graves.
    Mr. Graves. Aye.
    The Clerk. Mr. Graves votes aye.
    Mr. Akin.
    Mr. Shuster.
    Ms. Musgrave.
    Ms. Musgrave. No.
    The Clerk. Ms. Musgrave votes no.
    Mr. King.
    Mr. Fortenberry.
    Mr. Westmoreland.
    Mr. Gohmert.
    Mr. Heller.
    Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Mr. Davis votes aye.
    Ms. Fallin.
    Ms. Fallin. Aye.
    The Clerk. Ms. Fallin votes aye.
    Mr. Buchanan.
    Mr. Buchanan. Aye.
    The Clerk. Mr. Buchanan votes aye.
    Mr. Jordan.
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Mr. Braley.
    Mr. Braley. Aye.
    The Clerk. Mr. Braley votes aye.
    Madam Chair.
    Chairwoman Velazquez. The Clerk will report the vote.
    The Clerk. With that, there are 21 yes and four no votes.
    Chairwoman Velazquez. The ayes have it. H.R. 3867 is 
adopted and ordered reported as amended. Thank you.
    I ask unanimous consent that the committee be authorized to 
correct section numbers, punctuation, and cross-references and 
to be make all the necessary technical and confirming 
corrections on the bills considered today.
    Without objection, so ordered. This markup is now 
adjourned.
    [Whereupon, at 11:28 a.m., the committee was adjourned, 
subject to the call of the chair.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
